10/17/03      FRI 08:50 FAX 865 576 3213                  OAK RIDGE AUDIT                -+44 AIGA                    o001
10/16/03. THU     15:52 FAX 423 241 3897                 OIG                              * ELMORE
                                                                                         --                          I001


United States Government                                                             Department of Eney
memorandum
   DATE:     October 1.6,    2003                                                                                b

REPLY TO
 ATTNTO:     IG-36 (A030R013)                                              Audit Report No.: OAS-L-04-02
 SUBJECT:    Waste Pits and Silos Remediation at the Femald Closure Project

     To:     Robert Wazther, Manager, Ohio Field Office


             INTRODUCTION AND OBJECTIVF

             In November 2000, the Ohio Field Office awarded a contract to Fluor
                                                                                    Fernald Inc., (Fluor) to
             complete the cleanup and closure of the Fernald Closure Project, located
                                                                                       near Cincinnati, Ohio,
             by 2010. The Ohio Field Office modified the contract in March 2003 to require
                                                                                               that site
             closure activities be completed in 2006, and directed Fluor to develop
                                                                                    a revised baseline for
             accelerating all remaining cleanup activities.

            Two of the largest and most difficult cleanup projects at the site are the Waste
                                                                                                Pits and Silos
            Projects. The Waste Pits Project involves the excavation and disposal of waste
                                                                                                 from six pits
            ranging in size from a baseball diamond to a football field, and up to 30
                                                                                         feet deep. These pits
            contain about one million tons of low-level radioactive waste generated
                                                                                        by past uranium and
            thorium processing activities. The excavated waste will be shipped to a commercial
                                                                                                       facility in
            Utah for disposal. The Silos Project involves the disposal of waste from,
                                                                                           and demolition of,
            four concrete storage tanks constructed in the 1950s. Three of the silos contain
                                                                                                 a total of about
            14,000 cubic yards of low-level waste, and the fourth is empty. The Department
                                                                                                   currently
            plans to stabilize and treat the silos waste prior to disposal at the Nevada
                                                                                          Test Site or a
            commercial facility.

            The objective of the audit was to determine whether the Waste Pits and
                                                                                   Silos Projects were on
            schedule to be completed in 2006.

            CONCLUSIONS AND OBSERVATIONS

            The projects appear to be on schediu le for completion prior to the 2006
                                                                                      contract deadline. As
            of July 2003, the Department had disposed of about 570,000 tons of waste
                                                                                          from the pits, and is
            on schedule to complete the Waste Pits Project in 2004. The Silos Project
                                                                                         also appears to be
            on truck for completion in 2006, even though a dispute between Fluor
                                                                                     and one of its
            subcontractors has delayed cleanup activities and increased the estimated
                                                                                        cost of removing the
            waste from silos I and 2 by over $30 million.

            Althoigh the projects appear to be on schedule, the Office of Inspector General
                                                                                               is concerned
            that the Ohio Field Office could reimburse Fluor for legal costs incurred
                                                                                       with the tennination
            of a subcontract involving the cleanup of silos 1 and 2. The subcontractor
                                                                                         is pursuing a
            termination claim for its subcontract to design, build, and operate an accelerated
                                                                                                waste retrieval
10/17/03   FRI 08:50 FAX 865 576 3213                 OAK RIDGE AUDIT                -*- AIGA                    Z.002
10/16/03   THUT15:52 FAX 423 241 3897                 OIG                            -,, ELMORE                  Q002



           and radon control system. To date, Fluor has incurred about $1,2 million in legal costs to
           defend itself against the lawsuit. Since this dispute has not been settled, additional legal costs
           will probably be incurred.

           In our opinion, if the Department reimburses Fluor for any legal costs or subcontract
           termination claims, these amounts should be included in Fluor's total project costs for fee
           determination purposes. We recognize that the Department gave advance approval
                                                                                                 for Fluor's
           decisions to negotiate a settlement with the subcontractor and retain outside legal counsel to
           defend itself in the subsequent litigation. However, the Department had previously
                                                                                                 notified
           Fluor that it would be held accountable for completing the Silos Project on time and
                                                                                                  within
           budget.

           SCOPE AND METHODOLOGY

           The audit was performed from April 28 through August 29, 2003 at the Fernald Closure
           Project near Cincinnati, Ohio. The scope of the audit was limited to costs and activities related
           to the Waste Pits and Silos Projects from Fiscal Years 1999 through 2003.

           The audit was perfornned in accordance with generally accepted Government auditing
            standards for performance audits and included tests of internal controls and compliance with
           laws and regulations to the extent necessary to satisfy the audit objective.
                                                                                         Accordingly, we
           assessed the significant internal controls related to the Waste Pits and Silos Projects.
                                                                                                     Because
           our review was limited, it would not necessarily have disclosed all internal control deficiencies
           that may have existed at the time of our audit. We did not assess the reliability of computer
           processed data because only a limited amount of computer processed data was used
                                                                                                    during the
           audit. Finally, we assessed the Department's compliance with the Government
                                                                                             Performance
           and Results Act of 1993, and found that specific performance targets had been established
           related to remediation projects.
           We discussed the audit results with the Acting Director, Fernald Closure Project,
                                                                                             on
           October 1, 2003. Since no formal recommendations are being made in this letter report,
                                                                                                   a
           formal response is not required. We appreciate the cooperation of your staff throughout
                                                                                                   the
           audit,




                                               v C----^Te
                                                                        . endlingcr, Dieor
                                                                 E ronmental Audits Division
                                                                Office of Inspector General

           cc: Assistant Secretary for Environmental Management
               Team Leader, Audit Liaison Team, ME-2.1
               Audit Liaison, DOE-OH
               Audit Liaison, DOE-FCP




                                                            2
 10/16/03          THU 15:45 FAX 423 241 3897              OIG                          4-*4   HQ               [003

00 F 325.8
(0S-93)
United States Government                                                            Department of Energy


memorandum
         DATE:       October 16,   2003
     REPLY TO
     ATTN OF:        IG-30 (A030R013)

     SUBJECT:        Audit Report on "Waste Pits and Silos Remediation at the Femald Closure Project"
             TO:     Team Leader, Audit Liaison Team, ME-2.1


                     Attached.is the subject report. The report does not contain a finding or recommendations
                     that need to be tracked in the Department's audit tracking system. Therefore, no
                     Management Decision is required.

                     We appreciate your cooperation.




                                                                Lerry
                                                                L7.rendlinger,  Director
                                                          Environmental Audits Division
                                                          Office of Inspector General

                     Attachments

                     cc: Manager, Ohio Field Office
                         Audit Liaison, Fenmald Closure Project.
 10/16/03            THU 15:45 FAX 423 241 3897                  OIG                           *-*- HQ              l]002
DOE F 1325.8


United States Government                                                                  Department of Energy


memorandum
         DATE:         October 16,       2003
    REPLY TO
    ATTN OF:           IG-36 (A03OR01 3)
   SUBJECT:            Audit Report on "Waste Pits and Silos Remediation at the Femald Closure Project"
               TO:     Director for Performance Audits and Administration

                       Attached is the required final report package on the subject audit. The pertinent details
                       are:

                       1. Staff days:                  Programmed         N/A         Actual     N/A
                              Elapsed days:            Programmed        1.62 .       Actual    171
                       2. Names of OIG audit staff:
                              Assistant Director:      Fred Pieper
                              Team Leader:             Rick Buchanan
                              Auditor-in-Charge:       Steve Sommer
                              Audit Staff:             Amy Hayes
                       3. Coordination with Investigations and Inspections:

                              The draft report was sent to Walt Warren, Office of Investigations, and Henry
                              Minncr, Office of Inspections, on September 8, 2003. Their responses indicated that
                              the report would not affect any ongoing investigations or inspections.




                                                            (          .^Tenyy Trendlinger, Direct
                                                                         En onmental Audits Division
                                                                        Office of Inspector General

                       Attachments:

                       1.     Final Report (2)
                       2.     Monetary Impact Report
                       3.     Audit Project Summary Report
                       4.     Audit Database Information Sheet
10/16/03    THU 15:45 FAX 423 241 3897                      OIG                                   -*-* HQ                          ]004




                             MONETARY IMPACT OF REPORT NO.: OAS-L-04-02


      1. Title of Audit:      Waste Pits and Silos Projects at the Fernald Closure Project

      2. Division:            Environmental Audits Division

      3. Project No.:         A030R013

      4: Type of Audit:

             Financial:                                        Performance:        x
               Financial Statement                               Economy and Efficiency                              x
                Financial Related                                Program Results
            Other (specify type):

      5. Please report monetary savings identified in the report. If unable to quantify monetary
      savings at this time, please identify any potential future impact on audited activities/locations in
      the remarks section below.

                                                                                            MGT,              POTENTIAL
                FINDING             BETTER USED              QUESTIONED COSTS             POSITION             BUDGET
                                                                                                                IMPACT
                                          Recurring
      (A)            (B))           (C)      (D)         (B)           (F)         (G)       (H)                       (I)
                     Title          One    Amount     Questioned   Unsupported    Total   C=Coincur                  Y-Ycs
                                   Time      Per       Portion       Portion              N=Noncon                   N=No
                                            Year                                          U=Undoc
            None,                 N/A     N/A         N/A          N/A           N/A           N/A                   N/A




      TOTAL.S-ALL FINDINGS        N/A     N/A         N/A          N/A           N/A      :: :. ::.::::::..   :...
                                                                                                              ;.         :::::


      6. Remarks: The projects appear to be on schedule for completion prior to the 2006 contract
      deadline. As of July 2003, the Department had disposed of about 570,000 tons of waste from the
      pits, and is on schedule to complete the Waste Pits Project in 2004. The Silos Project also
      appears to be on track. for completion, in 2006, even though a dispute between Fluor and one of
      its subcontractors has delayed cleanup activities and increased the estimated cost of removing the
      waste from silos 1 and 2 by over $30 million. However, the Office of Tnspector General is
      concerned that the Ohio Field Office could reimburse Fluor for legal costs incurred with the
      termination of a Fluor subcontract involving the cleanup of silos 1 and 2. To date, Fluor has
      incurred about $1.2 million in legal costs to defend itself against the lawsuit. Since this dispute
      has not been settled, additional legal costs will probably be incurred.

      7. Contractor:                                    10. Approvals: r-                                                        /o//
      8. Contract No.:                                  Division Director  te:
      9. Task Order No.:                                Technical Advisor & aee
    10/16/03       THU 15:46 FAX 423 241 3897                                         OIG                        .        44      HQ                                     ~008
                                                 Audit Project Office Summary (APS)
                                                                                                                                                                    Page 1
aport run on:                          October 16, 2003 4:27 PM


 Audit#: A030R013                  Ofc;         ORA           Title: REMEDIATION OF WASTE SILOS & PITS AT THE FEMP



                                                          Planned     End of Survey       Revised                                 Actual
                                                                            --------------- -----------
                                                         -----------------------------------                                      -----------

                                                       01-OCT-02                                         28-APR-03          28-APR-03
  Entrance Conference:.....
                                                                                                           -SEP-3
                                                                                                         05-SEP-03              05-SEP-03
  Survey: ........ ..........
  Draft Report: ........ *...
                                                                                   05-SEP-03             07-OCT-03              16-OCT-03                    (R      )
  Completed (With Report):.                            30-SEP-03
  ------------ Elapsed Days;                                        364                     130                162                         171
                                                                                                               Elap.      Less        Su s p:

  Date Suspended:                                                            Date Terminated:
  Date Reactivated:                                                           Date Cancelled:
                                                                            ) Report Number:             OAS-L-04-02
  DaysSuspended(Cur/Tot):
  Rpt Title:   tTtle                                                         Report Type:                LTR   LETTER REPORT

  WASTE PITS AND SILOS REMEDIATION AT THE FERNALD CLOSURE PROJECT


                                                                                                                           /*     :   ..    ;   ..   .   .   .. J




  Class;          PER        PERFORMANCE
  Program;        EM         Not Found
  MgtChall: 009              CONTRACT/GRANT ADMIN                                                  AD;   496    PIEPER
   Site:          SSA        SINGLE-SITE AUDIT                                                    AIC:   277    SOMMER
  SecMiss:        ENV        ENVIRONMENTAL QUALIT                                      Team Ldr:         727    BUCHANAN
  PresInit:                  Not Found                                                 Tech Adv:         421    SCHULMAN




       Task No:
       Task Order Dt:                                                         CO Tech. Rep:
       Orig Auth Hrs:                                                            Orig Auth Costs:
       Current Auth:                                                          Current Auth Cost:
       Tot Actl             IPR Hr:                                              Tot Actl Cost:




                               __EmpDcona NameNfasatDte..:.    N.                                                    ..
                        _



                        ELLISON, F                                         0.1        09-AUG-03
                        SOLMONSON, D                                       1.4        20-SEP-03
                        BUCHANAN, P                                       23.4         04-OCT-03
                        HAYES, A                                          24.6         09-AUG-03
                            SOMMER, S                                     79.4         04-OCT-03
                             ITo.al.                           .      128.9




           io~a
   10/16/03     THU1 15:47 FAX 423 241 3897         OIG                       4-   -* HQ        ~009

                               Audit Project Office         Summary   (APS)
                                                                                           Page 3

aport run on:            October 16, 2003 4:27 PM




                                        History Date:     16-OCT-03
 Adit No:     A030R013


 PB/ ENTERED COMPLETED WITH" REPORT DATE.
10/16/03    THU 15:46 FAX 423 241 3897                  OIG                           -*--   HQ            0005


                                           Audit No. A030R013
           "Assessment of Changes to the Internal Control Structure and Their Impact on the
           Allowability of Costs Claimed by and Reimbursed to Bechtel Jacobs Company LLC
           Under Department of Energy Contract No. DE-AC05-980R22700"

           If your audit work or report deals with any of the following information, be sure to have
           your information reviewed by a classifier to ensure you are not inadvertently discussing
           Restricted Data or Formerly Restricted Data or any other level of classification.
           Information in the aggregate can be classified even if taken from unclassified sources.

             AIDS FOR REVIEW OF INFORMATION THAT MAY BE                                 YES           NO
                            CLASSIFIED OR CONTROLLED
           Source or formula for Chemical/Biological Agents that has not been                     X
           widely reported in open scientific literature.

           Existence of a specific Chemical/Biological agent that is considered a                 X
           threat to national security at a specified location within a government
           facility.

           Statements that a specific Chemical/Biological agent considered a                      X
           threat to national security cannot be detected by existing technology.

           Information concerning significant technical advances and break-                       X
           throughs in Chemical/Biological agent detection, dissemination, or
           response technologies that could significantly assist an adversary.

           Results or interpretation of research results from computer modeling                   X
           that reveal specific operational deficiencies or vulnerabilities of a
           facility, infrastructure, or response plan which could be exploited or
           otherwise could materially aid an adversary in planning or conducting
           a Chcmical/Biological attack.

           Source term parameters (e.g. location, quantity, release rate, dispersal               X
           mechanisms, physical state, or particulate size distribution) of a
           Chemical/Biological agent and the airborne or surface concentrations
           resulting from dispersion modeling.

           Specific dispersion mechanisms for specific chemical/Biological                        X
           agents, including grinding techniques and pressurized systems that
           would be effective for dispersion over a large area.

           Details of operational scenarios either for intelligence, civilian, or                 X
           military organizations that would reveal current vulnerabilities or
           lessen the effectiveness of the scenarios.

           Information about deployment of a specific detector or response                        X
           system that could be used to defeat or significantly reduce the
           effectiveness of that system or otherwise materially aid an adversary
           in planning or conducting an attack.
10/16/03    THU 15:46 FAX 423 241 3897                OIG                          --   HQ       i.006




           Descriptions of specific vulnerabilities of decontamination equipment             X
           or procedures that could be exploited to prevent or significantly
           reduce their ability to perform required functions or otherwise
           materially aid an adversary in planning or conducting a
           Chemical/Biological attack.

           Descriptions of specific conditions (e.g., carrier for an agent or                X
           environmental condition) that could be exploited to reduced the
           effectiveness of standard decontaminants or decontamination
           procedures such that risks to unprotected personnel cannot be reduced
           to acceptable levels, or otherwise would aid an adversary in planning
           a Chemical/Biological attack.

           Nuclear weapon design, fabrication, and utilization.                              X

           Radiological warfare.                                                             X

           Radiological dispersal devices.                                                   X

           Inertial confinement fusion.                                                      X

           Military nuclear reactors (not necessary for civilian).                           X
10/16/03   THU 15:46 FAX 423 241 3897               OIG                             -       HQ
                                                                                            H-*-          1007




                             AUDIT DATABASE INFORMATION SHEET


   1. Project Number:                   A030R013

   2. Title of Audit:                   Waste Pits and Silos Remediation at the Femald Closure
                                        Project

   3. Report Number and Date:-          WM LP/S-Wk-q0-02/          O"DM   f,   I,   2o003

   4. Management Challenge Area:        009 - Contracts and Grants Management

   5. Presidential Mgmt Initiative:     N/A

   6. Secretary Priority/Initiative:    ENV - Environmental Management

   7. Program Code:                     EM - Environmental Management

   8. Location/Sites:                   Fernald Closure Project, near Cincinnati Ohio

   9. Finding Summary:

     The projects appear to be on schedule for completion prior to the 2006 contract deadline. As of
     July 2003, the Department had disposed of about 570,000 tons of waste from the pits, and is on
     schedule to complete the Waste Pits Project in 2004. The Silos Project also appears to be on track
     for completion in 2006, even though a dispute between Fluor and one of its subcontractors has
     delayed cleanup activities and increased the estimated cost of removing the waste from silos 1 and
     2 by over $30 million.

     Although the projects appear to be on schedule, the Office of Inspector General is concerned that
     the Ohio Field Office could reimburse Fluor for legal costs incurred with the termination of a
     Fluor subcontract involving the cleanup of silos 1 and 2. The subcontractor is pursuing a
     termination claim for its subcontract to design, build, and operate an accelerated waste retrieval
     and radon control system. To date, Fluor has incurred about $1.2 million in legal costs to defend
     itself against the lawsuit. Since this dispute has not been settled, additional legal costs will
     probably be incurred.

    10. Keywords:         Waste Pits
                          Silos 1 and 2
                          Silo 3
                          Fernald Closure Project
                          Site Closure
                          Legal Costs
                          Contract Termination
                          Fluor Fernald, Inc.
